          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services


          Infrastructure Series




Audit Report
Planning for National Nuclear
Security Administration
Infrastructure




OAS-B-03-02                             May 2003
                                Department of Energy
                                     Washington, DC 20585

                                    May 6 , 2003




MEMORANDUM FOR THE ADMINISTRATOR
                           W&8*
                              .
FROM:                     William S. Maharay
                          Assistant Inspector General for Audit Services

SUBJECT:                  INFORMATION: Audit Report on "Planning for National
                          Nuclear Security Administration Infrastructure"


BACKGROUND

The mission of the National Nuclear Security Administration (NNSA) is to strengthen the
security of the United States by applying nuclear science and technology to military
purposes, and by reducing the global threat from weapons of mass destruction. To carry
out its mission, NNSA must ensure the vitality and readiness of the nuclear weapons
complex. However, as highlighted in numerous studies by NNSA, the Office of
Inspector General, and other outside organizations, the key infrastructure in the nuclear
weapons program has deteriorated significantly following the end of the Cold War.

To address this problem, NNSA established the Facility and Infrastructure
Recapitalization Program (FIRP). The mission of the FIRP is to restore, rebuild, and
                                                                                               .
revitalize the physical infrastructure of the nuclear weapons complex by applying new,
increased, direct appropriations to address an integrated prioritized list of infrastructure
and repair projects.

A key planning tool for allocating NNSA infrastructure funding is the Ten-Year
Comprehensive Site Plan. The site plans are the foundation for NNSA complex-wide
facilities and infrastructure strategic planning, focusing management attention on current
and future facilities and infrastructure needs at NNSA sites. We conducted the audit to
determine whether NNSA's site plans provided accurate and useful data to aid in the
prioritization of mission essential facility renovation and repair projects.


RESULTS OF AUDIT

NNSA site plans dld not contain accurate assessments of the structural and mechanical
condition of the site's facilities nor did they identify and prioritize the mission critical
facilities in need of repair or refurbishment. We found that facility condition assessments
used to support site plans were prepared using out-of-date information and that sites did
not have a standard methodology for assigning a mission criticality level to their
facilities. Without reliable site plans, NNSA has less assurance that the $1.5 billion it




                                @     Printed with soy ink on recycled paper
-2-
PLANNING FOR NATIONAL NUCLEAR SECURITY ADMINISTRATION
INFRASTRUCTURE

TABLE OF
CONTENTS



                Infrastructure Strategic Planning

                Details of Finding ........................................................................1

                Recommendations and Comments ............................................5


                Appendices

                Prior Reports ...............................................................................6

                Scope and Methodology .............................................................8

                Management Comments .............................................................9
INFRASTRUCTURE STRATEGIC PLANNING
Background           In its Fiscal Year 2003 Congressional budget submittal, the National
                     Nuclear Security Administration (NNSA) requested almost $250
                     million for its Facilities and Infrastructure Recapitalization Program
                     (FIRP) and indicated that a total of $1.5 billion was needed through
                     2007. FIRP's focus is on deferred maintenance reduction, while
                     separate programs within NNSA are responsible for ensuring that
                     facilities necessary for immediate programmatic activities are
                     maintained sufficiently to support the required workload. The FY 2003
                     budget request for the other programs totaled $950 million.

                     NNSA Ten-Year Comprehensive Site Plans, developed and updated
                     annually in accordance with NNSA headquarters guidance, are a key
                     planning tool for allocating infrastructure funding and provide a
                     foundation for NNSA complex-wide facilities and infrastructure
                     strategic planning. In 2001, Congress requested that the plans
                     specifically address mission-critical infrastructure requirements through
                     "…an appropriate mix of renovations and new construction."
                     Moreover, the site plans were to assess the condition of facilities and
                     identify and prioritize mission critical facilities. The plans were then to
                     be integrated into NNSA's budget submission. Our audit was
                     conducted to determine whether NNSA's site plans provided accurate
                     and useful data to aid in the prioritization of mission essential facility
                     renovation and repair projects.

Comprehensive Site   At the three locations we visited, we noted a number of instances in
Plans                which NNSA Ten-Year Comprehensive Site Plans did not contain
                     accurate assessments of the structural and mechanical condition of the
                     site's facilities. Additionally, the plans did not consistently identify and
                     prioritize the mission critical facilities in need of repair or
                     refurbishment. For example:

                                                    Los Alamos

                     NNSA officials, laboratory managers, and an independent contractor
                     have acknowledged that the Los Alamos site plan is deficient. In June
                     2002, NNSA officials at Los Alamos concluded that the site plan's
                     condition assessments were unreliable and informed Headquarters that
                     the Los Alamos assessments could not be relied upon for decision-
                     making purposes. Additionally, Los Alamos officials responsible for
                     conducting the condition assessments stated that only about 15 of the
                     1500 condition assessments used to create the site plan were accurate.
                     We found that:

                       •    The Los Alamos site plan contained many examples of incorrect
                            condition assessments. In one instance, the Los Alamos site
                            plan listed the condition of the Radioactive Liquid Waste
Page 1                                                                       Details of Finding
                Treatment Facility as "good." However, during a tour of the
                facility, the facility manager stated that the maintenance needs
                of the facility were understated by about $8 million and,
                therefore, should have been rated as being in "poor" condition.
                According to the Los Alamos facility manager, this is a critical
                facility.

           •    Los Alamos assigned the highest mission-critical priority
                ranking to its Neutron Science Center, a facility used primarily
                by academicians and others to conduct experiments to determine
                the atomic and molecular structure of matter. According to Los
                Alamos' facility maintenance manager, the center was ranked as
                a high priority because it was a major recruitment tool for
                attracting scientists to the laboratory. At the same time, the
                laboratory assigned lower priorities to weapons engineering and
                tritium facilities essential to the Stockpile Stewardship Program.
                In this regard, an internal independent review team issued a
                report in July 2001 that stated Los Alamos did not prioritize its
                facilities based on long-term mission needs or laboratory-wide
                strategic direction.

         An independent Los Alamos subcontractor reached a similar conclusion
         in June 2001 when it reported that Los Alamos did not have an effective
         condition assessment program.

         During the course of the audit, Los Alamos initiated actions to address
         some of the problems with its condition assessments. Specifically, in
         June 2002, Los Alamos awarded a contract to an engineering firm to
         conduct condition assessments of all its facilities. This action is
         scheduled to be completed in FY 2003.

                                          Sandia

         Sandia also did not have accurate condition assessments. Many of
         Sandia's condition assessments were inaccurate and the Site Plan did
         not include all of Sandia's locations.

           •    At Sandia, we observed a sample of 37 facilities which Sandia
                managers identified as critical, and concluded that, for eight
                facilities, the actual condition of the facilities was not reflected
                in the Sandia site plan. For example, Sandia's Weapons System
                Laboratory was designated in the site plan and being in "poor"
                condition, while the facility managers responsible for
                overseeing the building's maintenance told us that the facility
                was "adequate."

Page 2                                                          Details of Finding
             •   A Sandia subcontractor, hired to perform a detailed assessment
                 of physics facilities, reached different conclusions than those in
                 the site plan for nine of the 18 facilities examined. For example,
                 the site plan stated that the Radiant Heat facility and the Sled
                 Track instrumentation facility needed major renovation. The
                 subcontractor, however, concluded that only minor to moderate
                 renovations were needed for these two facilities.

             •   Sandia prioritized its facilities based upon building occupancy
                 rather than mission criticality. For example, administrative
                 offices that were continuously staffed were rated as mission
                 critical. At the same time, a Centrifuge Facility needed for
                 mission critical work, but fully staffed only when needed, was
                 rated lower. In another example, a salvage yard was given a
                 higher priority than a Light Initiated High Explosive Facility
                 (LIHE), which is critical to the Stockpile Stewardship Program.

         It should be noted that after we raised these issues with Sandia, the
         facility program manager and other laboratory officials revised the
         listing of mission critical facilities, including both the Centrifuge and
         LIHE facilities. The administrative facilities and salvage yard were
         excluded from the revised list. Additionally, Sandia refined its
         definition of critical facilities to better consider how they related to the
         overall NNSA mission.

                                          Nevada Test Site

         The Nevada Test Site likewise did not have accurate condition
         assessments. Specifically:

             •   At the Nevada Test Site, with the assistance of Nevada
                 personnel, we examined 38 separate facilities and concluded
                 that condition assessments for 22 facilities were inaccurate. For
                 example, a conference facility was assessed as being in "fair"
                 condition and described as being actively used. In contrast, we
                 noted that the facility was actually vacant, the ceiling was
                 falling in, and the building was scheduled for disposal. Further,
                 a warehouse was assessed as being in "adequate" condition, yet
                 the facility manager stated that it was rat infested and the roof
                 was in need of repair.

             •   We also examined Nevada's methodology for determining
                 mission criticality and determined that it was ineffective. For


Page 3                                                           Details of Finding
                                  example, Nevada gave the same mission critical rating to a
                                  trailer as it did to the Big Explosives Experimental Facility, a
                                  major testing center. According to Nevada personnel, the trailer
                                  should have been classified as personal property and not
                                  included in the Site Plan. Further, the same mission priority was
                                  assigned to lunchrooms as to a complex used for subcritical
                                  tests.

                           We discussed the accuracy of the three site plans and the different
                           prioritization methodologies with key personnel from NNSA's Office of
                           Nuclear Weapons Complex Strategic Integration. They acknowledged
                           that many of the condition assessments were unreliable and that the
                           sites had not always prioritized facilities based on NNSA mission
                           needs. Separately, we discussed our findings with NNSA's Office of
                           Infrastructure and Facilities Management, who stated that NNSA is
                           implementing a plan to ensure the quality and accuracy of condition
                           assessments in the future.

Availability of Accurate   The usefulness of site plans was diminished, in our judgment, because
Data and Program           facility condition assessments were prepared using out-of-date
Guidance                   information, and because NNSA had not developed a standard
                           methodology for assigning a mission criticality level to their facilities.

                           The majority of the facility condition assessments were completed
                           between 1992 and 1997. Los Alamos' last detailed evaluations, for
                           example, were performed in 1992, well before the May 2000 Cerro
                           Grande wildfire which caused damage to much of the Laboratory.
                           Despite that event, Los Alamos extrapolated the 1992 evaluations,
                           without the benefit of current observations, to arrive at its 2002
                           condition assessments rather than physically reevaluating the condition
                           of its facilities. Similarly, Sandia and the Nevada Test Site used
                           outdated data to arrive at their condition assessments.

                           NNSA had also not established guidance to help sites identify and
                           prioritize their mission critical facilities. If missions were prioritized
                           and defined, it would have been possible for the sites to consistently
                           determine which facilities were mission critical, instead of using their
                           own unique prioritization methodologies.

                           Recently, NNSA officials informed us that the FY 2004 Ten-Year
                           Comprehensive Site Plan Guidance provides instruction for defining
                           and reporting mission essential facilities and infrastructure.




Page 4                                                                            Details of Finding
Ensuring the Vitality and   Without reliable site plans, NNSA has less than adequate assurance that
Readiness of the Nuclear    the $1.5 billion it plans to spend on facilities and infrastructure
Weapons Complex             recapitalization over the next 5 years will be spent on the most urgent
                            needs. Given the deteriorating state of its physical infrastructure,
                            NNSA managers must have accurate, standardized site plans to make
                            critical facility decisions to stem the negative trend in the condition of
                            the complex. In addition, unless NNSA executes a robust corrective
                            action plan, it may not meet one of its major performance objectives,
                            namely, ensuring the vitality and readiness of the national security
                            enterprise.


RECOMMENDATIONS             We recommend that the Associate Administrator for Facilities and
                            Operations:

                               1. Develop and implement guidance establishing standard criteria
                                  for identifying mission critical facilities and define the types of
                                  facilities to be included.

                               2. Require NNSA sites to:

                                       a. Conduct new condition assessments on all mission
                                          critical facilities; and

                                       b. Update their Ten Year Comprehensive Site Plans using
                                          the revised condition assessments.


MANAGEMENT REACTION         NNSA concurred with the recommendations and stated that it has
                            instituted guidance for mission essential facilities and that many of the
                            necessary actions to address the overarching issues noted in the report
                            have been taken. Specifically, NNSA sites are updating or improving
                            their condition assessment processes and conducting additional baseline
                            condition assessment surveys. NNSA has also required all sites to
                            include an accurate deferred maintenance baseline and replacement
                            plant value of the site's total NNSA assets, as well as the subset of
                            mission essential facilities and infrastructure. NNSA management did
                            not believe that it risked being unable to ensure the vitality and
                            readiness of the nuclear weapons complex as indicated in the report.
                            NNSA also provided technical comments which were discussed at
                            length with our office. As appropriated, this report was revised to
                            reflect those discussions. Management's response is included in
                            Appendix 3.


Page 5                                                        Recommendations and Comments
Appendix 1



                                           PRIOR REPORTS


OFFICE OF INSPECTOR GENERAL AUDITS

  •   Disposition of the Department's Excess Facilities (DOE/IG-0550, April 2002). The report found
      that the Department's program for disposition of excess facilities was not fully satisfactory because
      the activities were not prioritized to balance mission requirements, reduce risks, or minimize life-
      cycle costs.

  •   Management Challenges at the Department of Energy (DOE/IG-0538, December 2001). The report
      identified the Department's major challenge areas, including Infrastructure and Asset Management.
      The report reiterated findings from prior reviews that determined that the Department's
      infrastructure is deteriorating at "an alarming pace" and may not be able to meet mission
      requirements.

  •   Facility Management at the Idaho National Engineering and Environmental Laboratory (WR-B-01-
      04, March 2001). The report stated that the Idaho National Engineering and Environmental
      Laboratory had not maintained its facilities in a safe and economical manner. Facility-related
      problems occurred, in part, because management did not ensure that a site maintenance plan was
      developed. As a result, Idaho's facility maintenance program threatened mission accomplishment
      and personnel safety.

  •   Management of the Nuclear Weapons Production Infrastructure (DOE/IG-0484, September 2000).
      The report stated that deteriorating infrastructure resulted in delays in weapons modification,
      remanufacture, dismantlement, and surveillance testing of nuclear weapons components. The
      budgeted amounts for infrastructure needs to be increased $5-8 billion over ten years in order to
      offset the effects of delayed or neglected infrastructure activities.

  •   Facilities Information Management System (DOE/IG-0468, April 2000). The audit disclosed that
      FIMS did not contain accurate and complete information resulting in the Department not having
      reliable real property information.

  •   Audit of the Radioactive Liquid Waste Treatment Facility Operations at the Los Alamos National
      Laboratory (WR-B-98-01, November 1997). The report stated that liquid waste was treated in the
      Radioactive Liquid Waste Treatment Facility, which was over 30 years old and in need of repair or
      replacement.




Page 6                                                                                       Prior Reports
Appendix 1 (continued)


OTHER REPORTS

  •   Defense Programs Facilities and Infrastructure Assessment Phase I Report 2000. The assessment
      found that the nuclear weapons complex except for the newest experimental facilities consisted of
      production, testing and laboratory facilities which were very old and in need of intensive and ever
      escalating maintenance.

  • FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety and Security of the United
      States Nuclear Stockpile (February 2001) expressed concern that the deterioration was accelerating
      in the nuclear weapons complex facilities. The Panel called upon NNSA to restore the capabilities
      that will be needed to perform stockpile work.




Page 7                                                                                      Prior Reports
Appendix 2

SCOPE         The audit was performed from March 2002 to December 2002 at the
              NNSA Headquarters; the Albuquerque Operations Office; Sandia
              National Laboratories; Los Alamos National Laboratory; and the
              Nevada Test Site. The audit examined the FY 2001 to FY 2010
              Ten-Year Comprehensive Site Plans at these locations.


METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed applicable Public Laws, Department orders, other
                  Departmental guidance, and related correspondence;

              •   Reviewed prior Office Inspector General and General Accounting
                  Office reports;

              •   Toured selected facilities at Sandia, Los Alamos, and the Nevada
                  Test Site;

              •   Interviewed managers at NNSA Headquarters, Albuquerque,
                  Sandia, Los Alamos, and the Nevada Test Site;

              •   Reviewed compliance with the Government Performance and
                  Results Act of 1993; and,

              •   Reviewed infrastructure related plans.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              we assessed the significant internal controls and performance measures
              established under The Government Performance and Results Act of
              1993 related to planning for infrastructure and concluded that they did
              not address the need for complete and accurate site plans. Sandia
              performance standards, for example, called for the development of a
              Site Plan, but did not state that it should include all facilities or that it
              be based on accurate recent evaluations. A review of Los Alamos
              performance measures showed that they did not specifically mention
              the Site Plan. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. Computer processed data was not relied upon
              extensively in the conduct of this audit. We discussed the findings with
              NNSA officials on February 3, 2003.


Page 8                                                        Scope and Methodology
Appendix 3


                                   Department of Energy
                              National Nuclear Security Administration
                                       Washington, DC 20585




         MEMORANDUM FOR                 Frederick D. Doggett
                                        Deputy Assistant Tnspector General
                                          for Audit Services
                                                                I...
                                                                   3   -3.   !'
         FROM :                         Antliony R. Lane
                                                            i-
                                                           s/


                                        Associate Administrator
                                                                  1-dk
                                         fbr Manageinent and Administration

         SUBJISCT:                      Comments to IG Draft Report Plaiuii~igfor NNS.4
                                        Infrastructure


         I'he Office of inspector General (IG) conducted an audit to determine kvhether
         NNSA's site plans provided accurate and usefbl data to aid in the prioritization of
         mission essential facility renovation and repair projects. Based on the audit. the
         JG recoinmended that NNSA (1) develop and implement guidance establishing
         standard criteria for identifying mission essential fdcilities, and (2) to conduct new
         condition assessments on all mission critical facilities and update the Ten Year
         Comprehensiw Site Plans using the revised condition assessments.

         NKSA agrees with the recommendations. We have already instituted guidance for
         mission essential facilities and note that inany of the necessary actions to address
         the overarching issues noted in h e report hake been taken. Specificall}, NKSA
         sites are updating or improving their condition assessment processes and
         conducting additional baseline condition assesstiient surveys. W S A has also
         required all sites to include an accurate deferred maintenance baseline and
         replacement plant value of the site's total XNSA assets. as well as the subset of
         mission essential facilities and infrastructure. As describcd in the attachment. wc
         do not believe that X N S A may be at risk of being able to ensure the vitality and
         readiness of the nuclear weapons complex as indicated in the draft report.

         Additionally, we are providing an attachment that f'ocuses on possible corrections.
         clarifications. and/or context settings to some of the findings and conclusions
         presented in the draft report. The attachment is part of the NNSA mana,cement
         reaction in the final report.
    Appendix 3 (Continued)




              Should you haye any questions related to our comments. please contact Richard
              Speidel. Director, Policy and Internal Controls Management at 586-5009.

              Attachment

              cc:    Greg Rudy, Associate Administrator for Facilities au.ld Operations, NA-SO
                     Robert C . Braden, Senior Procurement Executi\.e, NA-63
                     David I,. Marks. Director, Field Financial hlanagement




,




Page 10                                                                          Management Comments
                                                                              IG Report No.: OAS-B-03-02

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
